              Report on Audit of Contractor’s Compliance
                 With Cost Accounting Standard 420,
               Accounting for Independent Research and
                 Development and Bid Proposal Costs

                                  April 2005

                     Reference Number: 2005-1C-046




  This report has cleared the Treasury Inspector General for Tax Administration
disclosure review process and information determined to be restricted from public
                 release has been redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                             April 4, 2005


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               Report on Audit of Contractor’s Compliance With Cost
                              Accounting Standard 420, Accounting for Independent Research
                              and Development and Bid and Proposal Costs
                              (Audit #20051C0211)


       The Defense Contract Audit Agency (DCAA) performed an examination regarding the
       Civil Division’s compliance with Cost Accounting Standards (CAS) and the Federal
       Acquisition Regulation (FAR). The purpose of the examination was to determine if the
       contractor complied with the requirements of CAS 420, Accounting for Independent
       Research and Development Costs and Bid and Proposal Costs, and applicable FAR
       Part 31 requirements during the contractor’s Fiscal Year (FY) 2003.
       The DCAA opined that the Civil Division complied in all material respects with the
       requirements of CAS 420 during FY 2003. The DCAA considers the contractor’s
       accounting system adequate for the accumulating, segregating, and reporting of costs
       incurred under Federal Government contracts.
       This DCAA report was issued in April 2004; however, the Treasury Inspector General
       for Tax Administration (TIGTA) did not receive a copy of the report until February 2005.
       The Internal Revenue Service (IRS) previously received the report directly from the
       DCAA. We are transmitting this report to you to enable the IRS to track any financial
       accomplishments derived from negotiations with the contractor based on results of this
       DCAA report.
       The information in this report should not be used for purposes other than those intended
       without prior consultation with the TIGTA regarding their applicability.
                                          2

If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
